Department of Homeland Security
   Ofﬁce of Inspector General


    The Science and Technology Directorate's 

      Processes for Funding Research and 

             Development Programs





OIG-09-88                                July 2009
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                              July 8, 2009

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report addresses the processes that the DHS Science and Technology Directorate uses to
fund its research and development efforts. It is based on interviews with key directorate officials
and staff as well as senior leaders of relevant agencies and institutions and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Executive Summary .........................................................................................................................1


Background ......................................................................................................................................2


Results of Review ............................................................................................................................6


           Improper Communications and Familiarity With Organizations Seeking Awards 

           Threatened Integrity of Some Competitive Procurements...................................................6 

           Recommendations..............................................................................................................12

           Management Comments and OIG Analysis ......................................................................12 


           Processes for Awarding Noncompetitive Interagency Agreements Require Further 

           Improvements ....................................................................................................................13

           Recommendations..............................................................................................................25

           Management Comments and OIG Analysis ......................................................................25 


Appendixes
           Appendix A:         Purpose, Scope, and Methodology..............................................................27 

           Appendix B:         Management’s Comments to the Draft Report............................................28 

           Appendix C:         DHS Management Directive 0710.1 Analysis of Alternatives Template ...32 

           Appendix D:         Sample S&T Analysis of Alternatives for IA Award in 2007 ....................34 

           Appendix E:         DHS Instruction 125-02-001 Analysis of Alternatives Template ...............35 

           Appendix F:         Major Contributors to This Report ..............................................................36 

           Appendix G:         Report Distribution......................................................................................37 


Abbreviations
           BAA           Broad Agency Announcement 

           CFR           Code of Federal Regulations 

           DHS           Department of Homeland Security 

           DOE           United States Department of Energy 

           FAR           Federal Acquisition Regulation 

           FFRDC         Federally Funded Research and Development Center 

           FY            Fiscal Year      

           GAO           Government Accountability Office 

           IA            Interagency Agreement         

           IPA           Intergovernmental Personnel Act

           OMB           Office of Management and Budget 

           OPO           Office of Procurement Operations 

           R&D           research and development 

           RFP           request for proposal 

           S&T           Science and Technology Directorate

OIG

U.S. Department of Homeland Security
Office of Inspector General


Executive Summary
                      This report is responsive to two congressional requests, one from the
                      Honorable Tom Davis, then-Chairman of the House Committee on
                      Government Reform, and the other from the then minority staff of the
                      House Committee on Homeland Security. The requests directed us to
                      review the methodology used by the Science and Technology Directorate
                      to award funding for research and development.

                      Despite a change in leadership and new management controls in 2006, the
                      directorate engaged in competitive and noncompetitive procurements that
                      initially raised concerns of impropriety. In four competitive
                      procurements, Science and Technology Directorate staff appeared to
                      provide an unfair advantage to specific individuals or companies. Upon
                      examination, the companies did not receive an unfair advantage, but staff
                      members’ actions were not appropriate. Also, a company responding in
                      an open solicitation obtained source selection information. However, the
                      disclosure did not taint the competition because the company was
                      disqualified for other reasons. Similarly, we identified what appeared to
                      be misuse of interagency agreements to award project funds to
                      organizations with which staff had professional or personal contacts.
                      Although these situations did not violate federal ethical rules, we could not
                      determine whether the awards were in the best interest of the government
                      because the rationale for making the awards was not documented.
                      Additionally, some directorate staff members used interagency agreements
                      solely to process procurements faster or more conveniently. The statute
                      governing these awards requires a determination that the award would be
                      in the best interest of the government in addition to being faster or more
                      convenient. We highlighted these situations because they illustrate
                      vulnerabilities and provide opportunities to strengthen controls.

                      Recently, Congress gave the Science and Technology Directorate more
                      responsibility for preparing interagency agreements. In response, the
                      directorate is developing more rigorous oversight processes and is
                      improving the documentation for interagency agreements. We are making
                      five recommendations to help the directorate develop procedures to ensure
                      strict compliance with federal statutes and regulations and to award
                      funding to the most deserving performers.



     The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                 Page 1
Background
                          Following the events of September 11, 2001, Congress passed the
                          Homeland Security Act of 2002 establishing the Department of Homeland
                          Security (DHS) and within it, the Science and Technology Directorate
                          (S&T).1 Among other things, the Act entrusted S&T with “conducting
                          basic and applied research, development, demonstration, testing, and
                          evaluation activities that are relevant to any or all elements of the
                          [d]epartment….”2 To fulfill these duties, S&T identifies and selects
                          research and development (R&D) projects that will provide technologies
                          to advance homeland security needs. We examined S&T’s processes for
                          selecting projects in our August 2008 report, The Science and Technology
                          Directorate’s Processes for Selecting and Managing Research and
                          Development Programs, OIG-08-85. This report examines the procedures
                          that S&T uses to fund the projects it selects.

                          With the exception of some field activities, such as the DHS-funded and ­
                          operated Transportation Safety Lab and Plum Island Animal Disease
                          Center, S&T does not use its staff to conduct R&D. Rather, its funds are
                          directed to other R&D organizations, which conduct the work. The
                          Homeland Security Act states that the private sector, national laboratories
                          sponsored by the United States Department of Energy (DOE),3 federally
                          funded research and development centers (FFRDCs),4 university centers
                          of excellence for homeland security,5 and other federal entities6 are
                          appropriate recipients of these funds.

                          S&T does not have contracting authority. To award its R&D funds, S&T
                          relies on contracting officers from another DHS Division, the Office of
                          Procurement Operations (OPO), within the Management Directorate. The
                          OPO contracting officers have the authority to obligate government funds,
                          and the responsibility to ensure that procurement decisions comply with
                          federal contracting regulations. They may assist S&T project managers in
                          planning their procurements, and they may overrule their procurement-
                          related decisions. Historically, OPO was unable to provide S&T with
                          enough contracting officers, which slowed procurement activities. In
                          response, S&T staff members frequently used other agencies’ procurement
                          services and contracting officers to award its projects. Currently, OPO


1
  6 U.S.C. § 181.
2
  6 U.S.C. § 182(4).
3
  6 U.S.C. § 189(e).
4
  6 U.S.C. § 185.
5
  6 U.S.C. § 188(c)(2).
6
  6 U.S.C. § 391(a)(2).


         The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                     Page 2
                           has 27 contracting officers and specialists to support S&T, but seeks a
                           staff of 35.

                           This shared procurement process begins when S&T determines that it has
                           a requirement such as procuring R&D services for a particular project.
                           The project manager initiates the procurement request paperwork, assisted
                           by S&T financial analysts. The paperwork is reviewed by one or more
                           S&T officials, depending on the type of procurement and amount of
                           funding. Once it passes through the S&T approval chain, the paperwork is
                           submitted to the contracting officer for review, approval, and action.
                           Other officials in OPO and in the office of the associate general counsel
                           for S&T also review procurement packages, depending on the type of
                           funding vehicle and amount of funding.

                           Federal statutes, the Federal Acquisition Regulation (FAR), and a DHS
                           management directive establish a preference for awarding contracts
                           through full and open competition. When conducting competitive
                           procurements, S&T
                           works with OPO or other        Difference Between RFPs and BAAs
                           agencies’ contracting
                           officers to solicit            RFPs provide a common statement of
                           proposals by means of          work that establishes specific tasks that
                           Broad Agency                   must be conducted. Responsive
                           Announcements (BAAs),          proposals compete against each other,
                           Requests for Proposals         with cost, price, or best value often
                           (RFPs), and grant              being the deciding factor.
                           announcements. The
                           FAR establishes the BAA        BAAs describe the agency’s research
                           solicitation tool for basic    interests, either for specific program
                           and applied R&D that is        areas or more broadly defining the full
                           not related to the             range of research requirements. BAAs
                           development of a specific      are a competition of ideas with well-
                           system or hardware             defined evaluation criteria. Individual
                           procurement.7 In the           proposals need not be compared to
                           past, S&T issued               each other, but must be evaluated
                           individual BAAs for            against a common set of evaluation
                           every area of program          criteria. BAAs are considered full and
                           interest. Currently, it has    open competition under the FAR
                           compiled all areas of          implementation of the Competition in
                           interest into one long-        Contracting Act. See FAR
                           term BAA.                      6.102(d)(2)(i).




7
    FAR § 35.016.


          The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                      Page 3
                           The individual and long-term BAAs for S&T program areas instruct
                           interested organizations to submit initial white papers summarizing their
                           R&D approach to the problem. Organizations that submit the most
                           promising white papers are asked to submit a full proposal. Single,
                           multiple, or no awards may be made under a BAA, as each proposal is
                           considered a separate procurement.8 The organizations that win
                           competitive solicitations may receive the funding by means of contracts,
                           interagency agreements (IA), grants, cooperative agreements, and other
                           transactions authority instruments.

                           In addition to using BAAs, S&T uses the competitive RFP tool. Unlike
                           BAAs, RFPs provide an explicit statement of work. Responses to RFPs
                           vary in cost, price, or best value, but not in the solution proposed.

                           Although competition is the preferred method for awarding federal
                           funding, in certain circumstances federal statutes allow for noncompetitive
                           awards such as sole source contracts and IAs issued under the Economy
                           Act of 1932, as amended.9 Sole source contracts are available when an
                           organization submits an independent proposal that meets certain FAR
                           requirements. The Economy Act permits federal entities to award funds to
                           other federal organizations without a competition. Under the Act’s
                           authority, S&T provides R&D project funding to federally funded
                           laboratories and research
                           organizations. S&T also                Examples of Economy Act IAs
                           uses the Act to award R&D
                           project funds by adding         • S&T transfers funds to the Department
                           task orders to another              of the Interior for its procurement
                           agency’s existing contracts         services (assisted acquisition).
                           with private industry. At       • S&T transfers funds to the National
                           times, S&T uses the                 Geospatial-Intelligence Agency to pay
                           Economy Act to engage               for the services of a private sector
                           another agency’s                    company already under contract with the
                           contracting staff to award a        agency (leveraging contracts of
                           new contract                        servicing agency).
                           competitively. When             • S&T transfers funds to the National
                           awarding funding under the          Institutes of Health to use their staff and
                           authority of the Economy            lab facilities to conduct the research.
                           Act, S&T pays the
                           servicing agency an administrative fee, except when the servicing agency
                           is a DOE laboratory.

                           S&T reported that in FY 2007, it awarded $307 million, or 46%, of its
                           $676.7 million R&D budget by means of IAs to other federal entities. In
8
    FAR § 3.104-1(5).
9
    31 U.S.C. § 1535.


          The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                      Page 4
                            FY 2008, the percentage increased to 54%, although the amount of R&D
                            IA awards in that fiscal year was $265 million because S&T’s R&D
                            budget was smaller than it was in FY 2007.

                                                                    S&T FY 2007 and 2008 R&D Funding Awards

                                                60%

                                                                                                                           54%


                                                50%

                                                                                                               45%



                                                40%
                              % of R&D Budget




                                                                                                                                 FY 2007
                                                30%
                                                                       27%                                                       FY 2008
                                                                              26%



                                                20%   18%


                                                            12%
                                                                                            10%
                                                10%                                                8%




                                                0%
                                                        BAAs               RFPs               Grants                 IAs


                                                       Award Type                   FY 2007                   FY 2008
                                                         BAAs                        $123,613,019              $61,369,065
                                                         RFPs                        $182,449,367             $128,360,223
                                                         Grants                       $63,561,652              $39,702,792
                                                          IAs                        $307,025,578             $265,273,364

                            S&T has faced criticism for the speed and manner in which it acquires
                            R&D services. In the FY 2006 appropriations, Congress rescinded $20
                            million of unobligated balances from prior year appropriations10 and
                            another $125 million in the FY 2007 appropriation11 because of the slow
                            rate at which S&T and OPO obligated S&T’s funds. Critics also accused
                            S&T and OPO of not awarding funding through the competitive bidding
                            process often enough and, instead, awarding the funds through
                            noncompetitive IAs to organizations with which S&T staff members had
                            personal or professional contacts.




10
     PL 109-90, § 546.
11
     PL 109-295, § 529.


           The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                                  Page 5
Results of Review

        Improper Communications and Familiarity With Organizations
        Seeking Awards Threatened the Integrity of Some Competitive
        Procurements
                 In 2007, circumstances surrounding four procurements created an appearance that
                 staff members intentionally directed funding to specific acquaintances, though
                 further review indicated that S&T staff did not violate conflict of interest or other
                 ethical rules. Inappropriate communications in two competitive procurements
                 raised concerns that S&T staff sought to award R&D funding to individuals or
                 companies with whom they were familiar. The problems were detected in time
                 for S&T to modify and preserve the integrity of those two procurements. In
                 another competitive procurement, a company somehow obtained procurement-
                 sensitive information, which violated the Procurement Integrity Act.12 In a fourth
                 procurement, an S&T employee who formerly worked for another federal agency
                 served on the source selection board of a procurement in which the employee’s
                 former employer competed. However, when attorneys for S&T were alerted, they
                 directed the employee to recuse himself. These situations indicate the need for
                 better understanding of or regard for procurement standards. The rules for
                 communicating during the procurement process were established to prevent
                 competitors from gaining an unfair advantage and ensure that the government
                 reaps the benefits of competition. S&T should train its staff in competitive
                 procurement and ethical rules, and S&T management must model and enforce
                 those rules.

                         Procurement Integrity Statutes and Regulations

                         The Competition in Contracting Act of 198413 and the FAR14 establish a
                         preference for using competitive methods for federal procurements. DHS
                         Procurement Operating Procedure 201 (Interim) requires the department to
                         use competition, except when doing otherwise would be in its best
                         interest.

                         Government officials must be careful when conducting any procurement.
                         The FAR emphasizes the need to maintain the public’s trust in federal
                         procurements. To do so, each member of the procurement system must
                         act with “integrity, fairness and openness.”15 Similarly, DHS
                         Management Directive 0480.1 directs employees to act impartially and
                         avoid appearances of violating the law or ethical standards.

12
   41 U.S.C. § 423.

13
   41 U.S.C. § 253.

14
   FAR 1.102-2(a)(5); FAR 6.101.

15
   FAR 1.102-2(c)(1). 



        The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                    Page 6
                         Other rules require specific actions to preserve the integrity of
                         procurements. Conflict of interest statutes and regulations prevent federal
                         employees from engaging in acts that would financially benefit their
                         family members or themselves.16 Also, to prevent enriching former
                         employers, the Code of Federal Regulations (CFR) requires that an
                         employee who has been employed within the last year by another party
                         must disclose that relationship to the current federal employer and receive
                         authorization to participate in any matter with the former employer.17
                         Finally, federal employees are prohibited from using their position to
                         benefit others for personal reasons.18

                         Other rules address the content and timing of communications between the
                         federal government and the organizations seeking award of procurement
                         funding. The FAR encourages federal agencies to interact with interested
                         parties, including industry, early in the acquisition process to define
                         requirements and acquisition strategy.19 However, the FAR cautions that
                         the contracting officer should attend one-on-one meetings with industries
                         when the meetings are “substantially involved with potential contract
                         terms.”20 If the government discloses specific information about a
                         proposed acquisition to one potential award winner, it must disclose that
                         information to other potential award winners as soon as possible in order
                         to avoid creating an unfair competitive advantage.21 The Procurement
                         Integrity Act prohibits any disclosure of contractors’ bids, proposals, and
                         source selection information before the procurement is awarded.

                         An August 2006 OPO memorandum provides guidance on communicating
                         with the private sector. It states that communications are appropriate for
                         determining that the commercial marketplace can or cannot support a
                         procurement need. It warns that it is inappropriate to communicate
                         specifics of an upcoming procurement or request a price proposal. The
                         memorandum directs that DHS staff must first contact the contracting
                         office before engaging in ongoing communications with private industries,
                         especially those with one or a limited number of vendors, to ensure that
                         the communications are appropriate.




16
   18 USC 208; 5 CFR 2635.502.
17
   5 CFR § 2635.502 (b)(iv).
18
   5 CFR § 2635.701.
19
   FAR 15.201.
20
   FAR 15.201(c)(4).
21
   FAR 15.201(f).


        The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                    Page 7
                             S&T Procedures To Ensure Compliance

                             S&T has established procedures to guard against conflicts of interest that
                             might arise in competitive procurements. Source selection evaluation
                             board members assessing the responses to competitive solicitations must
                             sign a nondisclosure agreement. Only government personnel may vote on
                             the board; contractors may only provide advice. Experts assigned to S&T
                             via the Intergovernmental Personnel Act (IPA)22 must sign an IPA
                             Disqualification Agreement
                             when participating on a          Individual Nondisclosure Agreement
                             source selection evaluation      “The integrity of the acquisition
                             board. This document             process requires that offerors be treated
                             reminds the IPA staff of the     fairly and that neither conflicts of
                             conflict of interest rules and   interest nor the appearance of
                             secures their commitment to      impropriety taint the consideration of
                             abide by those rules.            proposals.”

                             Improper Communications Almost Tainted Two Competitive
                             Procurements

                             Although S&T developed safeguards to ensure that staff did not award
                             project funding improperly, during our FY 2007 fieldwork we learned that
                             staff made mistakes when issuing competitive awards. S&T modified two
                             competitive procurements because of inappropriate communications with
                             companies that were submitting proposals to BAA solicitations. In the
                             first instance, a professional acquaintance of a senior S&T official
                             represented a company seeking to win project funding for an R&D project
                             it informally proposed. This representative contacted the S&T official
                             monthly to market the company’s idea. The official responded and shared
                             those communications with staff. The official decided to initiate a
                             competitive procurement for an R&D project that resembled the
                             company’s concept, despite staff misgivings about the project’s technical
                             merit. The official gave the new project a name that incorporated the
                             name of the company’s representative. While S&T staff members were
                             drafting the BAA for the new project, the official encouraged other S&T
                             staff to meet with the representative. The official eventually scheduled a
                             meeting with the representative after the BAA was published and invited
                             the project’s source selection authority, who invited the contracting
                             officer. When the contracting officer arrived, the contracting officer
                             directed the source selection authority to leave the meeting and instructed
                             the others not to discuss the BAA.




22
     5 U.S.C. § 3371-3376.


           The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                       Page 8
                 These actions led the chairperson for the project’s source selection board
                 to think that the senior official was implicitly directing the board to award
                 the project funding to the company. Source selection board chairs lead the
                 board’s efforts to assess organizations’ competitive proposals and
                 recommend those that should receive funding awards. After interviewing
                 the senior official, we concluded that the official did not intend to direct
                 the procurement award to an acquaintance. However, the official’s
                 communications were inappropriate because they appeared to convey an
                 attempt to influence the source selection chairperson, and they could be
                 perceived by others as unfairly influencing a federal procurement. Once
                 S&T decided to use a competitive process to award funds for a similar
                 project, the senior official should have discontinued communications with
                 the representative in order to comply with the OPO memorandum on
                 communications.

                 We alerted the contracting officer to the communications, and the
                 contracting officer then addressed these issues with the senior official and
                 the associate general counsel for S&T. Soon after that meeting, S&T
                 directed OPO to withdraw the BAA. The associate general counsel for
                 S&T and the contracting officer responsible for the BAA briefed S&T
                 personnel on procurement integrity rules at an all-hands meeting a few
                 weeks after the BAA was withdrawn.

                 In another situation, an S&T project manager received a briefing from an
                 organization that had already submitted a proposal to an open BAA. The
                 company mentioned aspects of its proposal during the meeting. The
                 contracting officer and the associate general counsel for S&T learned of
                 the situation and recommended modifying the BAA to allow all interested
                 organizations an opportunity to meet with S&T to exchange information.
                 S&T and OPO changed the BAA to allow all interested parties to make
                 oral presentations. Thus, S&T avoided giving one company an unfair
                 advantage.

                 Although oversight functions detected and resolved these problems before
                 unfair advantage tainted the procurements, S&T should take steps to
                 decrease the likelihood of similar problems. S&T should ensure that all
                 staff understand and respect the federal and DHS-specific rules about
                 communications and maintaining impartiality. Senior S&T officials
                 should model strict adherence to ethical rules and ensure that their actions
                 do not appear to favor any organization or individual. All staff members
                 should consult with contracting officers before engaging with
                 organizations or people with whom they are acquainted about competitive
                 procurements.




The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 9
                 Inadvertent but Improper Communication and Disclosure of
                 Procurement-Sensitive Information Did Not Provide a Competitive
                 Advantage in One Procurement

                 In 2007, two senior S&T officials unwittingly met with a representative of
                 a company that had submitted a proposal to an open BAA. During the
                 meeting, the company presented information related to its proposal, but
                 the senior officials did not realize it. A contracting officer was not present
                 at the meeting. After the meeting, other S&T staff reviewed the
                 presentation materials and determined that they were related to the
                 company’s proposal to the BAA.

                 Section 15.201 (f) of the FAR requires that a contracting officer be the
                 point of contact for communications after a solicitation has been issued.
                 By discussing the merits of technology the company had included in its
                 proposal without including a contracting officer, S&T could have given
                 the company an unfair advantage. However, S&T did not have to modify
                 the BAA to allow other companies to make oral presentations because
                 S&T rejected the company’s proposal for failing to present required cost
                 information. Consequently, the company did not receive a competitive
                 advantage as a result of the meeting with S&T.

                 It is appropriate for S&T to encourage interest in its programs by meeting
                 with industry representatives. However, the informal manner in which
                 S&T scheduled meetings led to this situation. To help staff respond
                 properly to industry inquiries, S&T has distributed questions for its staff to
                 ask organizations’ representatives before scheduling meetings with them.
                 The questions elicit information as to whether organizations have
                 submitted or plan to submit proposals to competitive procurement
                 solicitations in S&T or other federal organizations. This tool should help
                 S&T vet organizations, and S&T should require staff to use it.

                 Of greater concern is another inappropriate communication that arose
                 from this procurement. It occurred after S&T decided to reject the
                 company’s proposal for failure to provide necessary information, but
                 before the contracting officer informed the company. A representative
                 from the company telephoned the contracting officer responsible for the
                 procurement and said that he had learned that the company’s proposal
                 would be rejected because it failed to include the required cost
                 information. The contracting officer asked the representative to identify
                 the source of that information. The representative obliquely referenced an
                 S&T staff member. That S&T employee did not recall any such
                 conversation and had no record of it. The decision to accept or reject a
                 proposal and the underlying reasons for the decision constitute source
                 selection information. Disclosing this information violates the


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 10
                 Procurement Integrity Act. S&T should ensure that training for S&T staff
                 addresses appropriate handling of source selection information.

                 A Competitive Procurement Was Almost Undermined by a Source
                 Selection and Evaluation Board Member Who Had Contacts With an
                 R&D Organization

                 In a separate competitive procurement in 2007, a member of the S&T
                 source selection evaluation board for a BAA was previously employed by
                 one of the organizations that responded to the BAA. The former employer
                 was another federal agency that conducts R&D work. The contracting
                 officer learned of the situation and alerted the general associate general
                 counsel for S&T removed the employee from the source selection board.

                 Conflict of interest rules do not apply when a former employer is a federal
                 agency. S&T’s Individual Non-Disclosure statement reflects that
                 exception to the rule banning awards to former employers:

                          I will not participate in the evaluation of any proposal as to
                          which I or any member of my immediate family has an
                          actual or reasonably perceived conflicting financial interest
                          or a non-Government relationship which would cause a
                          reasonable person having knowledge of the relevant facts to
                          question my impartiality, unless I have been given
                          permission [emphasis added].

                 However, while not illegal, familiarity with a former agency or a spouse’s
                 agency could taint the employee’s objectivity when evaluating the
                 proposal and undermine the competitive process. The S&T chairperson
                 for the source selection and evaluation board selects the board members.
                 When vetting prospective members, the chairperson should determine
                 whether any have a relationship with the organizations that have submitted
                 proposals. The chairperson should consider not using individuals who
                 have current or former relationships with private or public organizations
                 submitting proposals.

                 Since we started our review, S&T has sought to ensure that its project
                 managers have contracting officer technical representative training and its
                 staff members receive basic acquisition training regularly. In 2007, S&T
                 staff completed 25 acquisitions-related courses. The number rose to 38 in
                 2008. In 2008, 32 staff members received project manager certifications as
                 DHS acquisitions officials, up from 19 in 2007. Acquisition and program
                 management training should help S&T avoid inappropriate
                 communications. However, senior management must show its commitment
                 to the rules in order to develop a culture of compliance at S&T.


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 11
        Recommendations
                 We recommend that the Under Secretary for Science and Technology:

                 Recommendation #1: Implement a procedure requiring S&T
                 chairpersons for source selection boards to determine whether prospective
                 board members have any employment, familial, or other connections with
                 organizations whose proposals they review. When such contacts exist, the
                 chairpersons should consider not asking those persons to serve on the
                 board.

                 Recommendation #2: Ensure that S&T staff members are aware of
                 OPO’s 2006 memorandum on communications, instruct staff through
                 training or other methods to consult with a contracting officer prior to
                 engaging in regular communications with industry, and require staff to ask
                 preliminary questions before engaging in any communications with
                 industry.


        Management Comments and OIG Analysis
        In its comments to our draft report, S&T agreed to fulfill recommendations #1 and
        #2 by working with OPO and the associate general counsel for S&T to ensure
        compliance with DHS source selection policies and by providing training to S&T
        employees by July 1, 2009. The training will include the provisions of the OPO
        2006 memorandum on communications and the second chapter of a DHS
        document, A Practical Guide to Source Selection, April 2008. The directorate’s
        comments also said that the directorate would recommend that DHS include this
        information in its training programs.

        We concur with S&T’s decision to follow the A Practical Guide to Source
        Selection for purposes of resolving conflict of interest and related procurement
        integrity issues. We note, however, that the Forward to the guide states that the
        document should not be used for proposals that respond to BAAs. Some aspects
        of the guide do not apply to R&D contracting, such as determining a competitive
        range and requiring a common cut-off date. However, the terms of chapter two,
        which address ethical considerations, apply to R&D contracting, and would be
        useful guidance for S&T.

        We recommended that S&T’s source selection board chairpersons ensure the
        source selection board’s integrity because S&T had expressed concerns about
        program staff disclosing personal information to contracting officers. By relying
        on A Practical Guide to Source Selection, it appears that S&T has overcome those
        concerns. The guide directs contracting officers to ensure that people who are


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 12
        involved in source selection have received training with respect to procurement
        integrity and personal conduct. It also directs the contracting officer to resolve
        potential and actual organizational conflicts of interest and procurement integrity
        issues.

        S&T should work with OPO to develop a procedure for ensuring that S&T
        employees provide contracting officers with information related to employment,
        familial, or other connections between people and organizations involved in a
        source selection process. It also must ensure that its personnel cooperate fully
        with contracting officers in compliance with the procedure. We consider
        recommendation #1 resolved/open, and will close this recommendation when
        S&T provides documentation of this new procedure.

        We consider recommendation #2 resolved/open and will close this
        recommendation when S&T provides documentation of the training materials, the
        dates the training was administered, and confirmation that all S&T employees
        received the training.


Processes for Awarding Noncompetitive Interagency Agreements
Require Further Improvements
        S&T has improved how it provides funding through IAs, although more work is
        needed. In 2005 and 2006, the Office of Management and Budget (OMB),
        members of Congress, and the Government Accountability Office (GAO) noted
        problems in the use of IAs throughout the federal government. In response, S&T
        made some improvements. However, in 2007, S&T project managers used stock
        language to document their reasons for using IAs. Because we could not identify
        the reasons for using an IA from the documentation, we asked project managers
        and contracting officers to explain the reasons. Sometimes project managers used
        IAs primarily to obligate money quickly. It also appeared that some project
        managers used IAs to direct funds to organizations with which they had personal
        connections. Although none of these procurements violated conflict of interest
        rules, we were concerned that without documentation of specific reasons for
        directing funds via the IA, project managers could have awarded funds that did
        not provide the best value to the government.

        In the summer of 2008, DHS issued a new management directive and instructions
        on the use of IAs. S&T is changing its processes in response and already has
        made some improvement in the quality of the documentation that justifies the use
        of the IA. Also, the Acting Under Secretary said that he will create a new
        oversight mechanism for IAs to ensure that they provide the best value for the
        government. We applaud S&T’s efforts and recommend that it continue to
        improve management oversight, require better documentation for IAs, and train
        its staff to understand the appropriate uses of IAs.


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 13
                         Statutory and Regulatory Requirements for Using Noncompetitive
                         Interagency Agreements

                         According to 41 U.S.C. 253, the government should use full and open
                         competition to procure goods and services. However, the statute allows
                         exceptions when other laws provide for noncompetitive procurement
                         methods. Likewise, DHS Procurement Operating Procedure 201 (Interim)
                         states that the department should use competitive means to acquire
                         supplies and services but may rely on IAs when it is in the department’s
                         best interest. The FAR reaffirms 41 U.S.C. 253, which says that
                         contracting officers shall promote and provide for full and open
                         competition when awarding government contracts.23 It recognizes
                         exceptions, such as using another federal agency under the Economy Act.24
                         The FAR also states that the government should subject commercial
                         activities to the forces of competition, but perform inherently
                         governmental activities with government personnel.25

                         S&T and other federal entities may use the Economy Act to procure goods
                         and services noncompetitively when circumstances meet the Act’s criteria,
                         which require the following:

                             •	 The servicing agency is able to provide the goods and services or
                                obtain them by contract;
                             •	 The requesting agency cannot procure the goods or services by
                                competition as “conveniently” or “cheaply”; and
                             •	 Procuring the goods or services noncompetitively would be in the
                                government’s best interest.

                         The FAR specifies procedures for using Economy Act IAs. It states that
                         agencies must prepare a “Determination and Findings,” which explains
                         how agencies meet the criteria for each IA they issue.26

                         DHS incorporates rules for using IAs in Procurement Operating Procedure
                         201 (Interim), “Inter-/Intra-Agency Agreements (IAs), Responsibilities and
                         Procedures.” The procedure instructs DHS personnel to acquire supplies
                         and services by competitive means, but allows noncompetitive IAs when
                         they would be in the department’s best interest. Personnel must complete
                         an Analysis of Alternatives if they want to use an Economy Act IA. When
                         we analyzed IAs in 2007, DHS Management Directive 0710: Reimbursable
                         Agreements was in place. It provided a template for the Analysis of

23
   FAR 6.101.
24
   FAR 17.5.
25
   FAR 7.302.
26
   FAR 17.503.


        The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                    Page 14
                        Alternatives (see appendix C). In the summer of 2008, DHS rescinded
                        Management Directive 0710 and provided updated policy and instructions.
                        We discuss the effects of the change in subsequent sections of this report.

                        S&T project managers complete Part A of the Analysis of Alternatives
                        with the assistance of an S&T financial analyst, and contracting officers
                        complete Part B. The first sentence in the Analysis of Alternatives
                        template states that the document will “(1) identify and evaluate various
                        methods of obtaining needed goods and services; (2) determine which
                        alternative is the most advantageous to the government; and (3) document
                        the cost/price analysis.” The remaining items in Part A require a
                        description of the project and an analysis of alternative solutions, which
                        should include the following:

                            •    In-house resources
                            •    Servicing agency in-house resources
                            •    Existing DHS contracts
                            •    Existing servicing agency contracts
                            •    New contracts

                        The template instructs that the project manager should “Identify all
                        feasible alternatives for accomplishing the stated objective…. Identify all
                        known costs and describe the benefits and disadvantages of each
                        alternative.” Part A also requires a discussion of the rationale for selecting
                        an interagency agreement, which should explain why the IA is in the best
                        interest of the government. The contracting officer completes Part B of
                        the template, which simply requires the contracting officer to analyze the
                        cost/price advantages and disadvantages of the IA compared to the other
                        procurement options.

                        S&T Did Not Use Noncompetitive Interagency Agreements Properly
                        in the Past

                        Several OMB and GAO reports noted that the federal government in
                        general, and DHS in particular, have not always used IAs appropriately.
                        OMB reported in 2005 that the federal government as a whole issued IAs
                        that did not represent the best value to the government.27 OMB urged
                        federal chief acquisition officers and senior procurement executives to
                        ensure that IAs are used properly and strategically.

                        In its December 2005 report, DHS Needs to Improve Ethics-Related
                        Management Controls for S&T, GAO-06-206, GAO expressed concerns

27
  Memorandum from Robert A. Burton, Associate Administrator, OMB InterAgency Acquisition Working Group,
to Chief Acquisition Officers Agency Senior Procurement Executives (Nov. 21, 2005).


       The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                   Page 15
                         about how IPA staff members at S&T were awarding R&D funding to the
                         home laboratories. GAO recommended that all IPA staff receive
                         specialized ethics training to reflect the vulnerability of their position to
                         conflicts of interest. The report also noted that DHS should finalize a
                         process for determining where R&D funds are directed and document the
                         rationale for those decisions. The report said that without such a process,
                         IAs could be used to reward friends or acquaintances.

                         In 2006, GAO issued another report that concluded that DHS did not
                         always follow the criteria of the FAR or the Economy Act when making
                         these awards. In GAO-06-996, Interagency Contracting: Improved
                         Guidance, Planning, and Oversight Would Enable DHS to Address Risks,
                         GAO reported that the benefits of speed and convenience, and not total
                         value to the government, often drove DHS decisions to choose interagency
                         contracting vehicles such as IAs.28 None of the contracting officers
                         interviewed by GAO said that they chose to use interagency contracts
                         because they provided good value to DHS. GAO concluded that if DHS
                         had considered the fees charged by the servicing agency in some cases, it
                         would have determined that the IAs were not a good value. Furthermore,
                         GAO noted that when IAs are used to award funds noncompetitively,
                         funds may be directed to an organization that does not provide the best
                         value to the government. Given these concerns, GAO concluded that
                         DHS management should evaluate the cost and performer value before
                         deciding to use an IA to award R&D funding without competition. It
                         recommended that DHS develop comprehensive guidance and criteria to
                         consider in deciding to use an IA. DHS concurred with the report’s
                         recommendations.

                         S&T Improved Some Processes for Awarding Interagency
                         Agreements to National Labs

                         In response to OMB’s and GAO’s concerns, S&T drafted guidance for its
                         employees for safeguarding the integrity of IAs issued to national labs
                         under the Homeland Security Act. The guidance requires IPA employees
                         to complete a financial disclosure form, a conflict of interest briefing, and
                         an ethics briefing. It also states that an IPA employee must not be
                         personally involved in handling or participating in any proposal, award,
                         research activity, or other matter that involves his or her parent
                         organization. Furthermore, an IPA employee must obtain permission from
                         the office of the associate general counsel for S&T before participating in
                         any matter involving specific parties if a reasonable person with



28
 Interagency Contracting: Improved Guidance, Planning, and Oversight Would Enable DHS to Address Risks,
GAO-06-996, September 2006.


        The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                    Page 16
                            knowledge of the relevant facts would question the employee’s
                            impartiality in the matter.29

                            2007 Fieldwork Indicated That S&T Needed To Document Economy
                            Act Interagency Agreements Better

                            Although S&T improved procedures to safeguard IPA use of IAs, during
                            our 2007 fieldwork we found that procedures were not being followed,
                            which could result in S&T funding R&D options that do not provide the
                            best value to the government. The documentation for the rationale for
                            using an IA instead of other methods, specifically the Analyses of
                            Alternatives, did not reflect the reasons for using each IA. Rather, S&T
                            project managers used stock language in every document we examined. In
                            the “Project Description” section, the project managers provided
                            information specific to the project they sought to fund. However, the nine
                            Analysis of Alternatives documents we reviewed each stated:

                                •	 In-house Resources: Resources and expertise required is not
                                   available in-house;
                                •	 Servicing Agency In-house Resources: [the servicing agency] has
                                   the resources to complete these tasks;
                                •	 Existing DHS Contracts: There are no existing DHS contracts to
                                   provide this service;
                                •	 Existing Servicing Agency Contracts: DHS currently has other
                                   interagency agreements with [the servicing agency] to provide
                                   services for various aspects of DHS requirements; and
                                •	 New Contracts: A new contract is not feasible at this time and
                                   would delay this project.

                            Appendix D contains an example of a 2007 Analysis of Alternatives that
                            we reviewed. When we asked one project manager what that language in
                            the “New Contracts” part of the analysis meant, he said that the word
                            “feasible” was probably inaccurate. Five S&T officials and contracting
                            staff members confirmed that S&T project managers regularly insert this
                            statement in the Analysis of Alternatives documents. These formulaic
                            statements do not meet DHS Management Directive 0710’s instruction to
                            identify all feasible alternatives, their costs, and to describe the benefits
                            and disadvantages of each.

                            Likewise, each Analysis of Alternatives we reviewed contained identical
                            language in Part B, which documents the “Cost/Price Reasonability” and
                            is signed by the contracting officer. Each stated:


29
     Id.


           The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                       Page 17
                          [The servicing agency] has expertise in services that is not
                          found within DHS. Entering into an interagency agreement
                          with [the servicing agency] will be in the best interest of
                          the Government, as [the servicing agency] has the expertise
                          to provide these services in a cost effective and efficient
                          manner.

                 It is unclear how the contracting officers concluded that the IA was in the
                 best interest of the government based on these statements alone.
                 Contracting officers said that to confirm the stock language and attest to it
                 with their signatures, they relied on the project managers’ assurances that
                 the IA was in the best interest of the government. Contracting officers and
                 S&T program staff said that contracting officers did not have the subject
                 matter expertise to question the project managers’ decisions related to the
                 suitability of R&D performers.

                 Three project managers and four contracting officers said that the project
                 managers know or are comfortable with other federal agencies and feel
                 confident doing business with them. They believe that their familiarity
                 with the marketplace provides an adequate basis for analyzing alternatives.
                 Accordingly, the project managers did not conduct market research for
                 alternative methods such as using a competitive method or choosing a
                 different federal agency to provide the service.

                 Procurement Operations Procedure 201 directs project managers and
                 contracting officers to identify and evaluate various methods for obtaining
                 services and to determine which is most advantageous. However, the
                 Analyses of Alternatives that we reviewed did not list the alternatives,
                 their terms, or why they would not be in the best interest of the
                 government. There is no underlying documentation of the project
                 managers’ or contracting officers’ rationale for making the stock
                 statements.

                 Five contracting officers said that they occasionally identified cut-and­
                 paste errors in the Analysis of Alternatives and Determinations and
                 Findings documents, indicating that S&T senior staff members did not
                 conduct a thorough review to ensure that the documents met the FAR and
                 Economy Act criteria. One Analysis of Alternatives document that we
                 reviewed exemplified the problem. The “Cost/Price Reasonability”
                 section stated that the servicing agency had expertise in grant
                 administration services that was not found within DHS. However, the IAs
                 were for research-related tasks, not grant administration services (see
                 appendix D). That project managers made mistakes in completing the
                 template is not a serious concern, but the mistakes indicate that S&T staff
                 members were not attentive when reviewing and approving the


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 18
                 documents. These documents should be thoroughly checked to ensure
                 they not only are accurate, but that they exhibit sufficient inquiry and
                 analysis that the IA will provide the best value to the government

                 Foregoing reliance on stock language would require the project managers
                 to evaluate carefully the options for selecting a method for awarding
                 project funds. It would also provide the S&T, OPO, and associate general
                 counsel for S&T staff reviewing the package with a basis for asking
                 questions and approving appropriate awards. Without such
                 documentation, S&T may be neglecting the intent of the Economy Act and
                 not getting the best value for its investment. In addition, the absence of a
                 substantive review enables project managers to award funding
                 noncompetitively for other improper purposes. Though we did not
                 confirm any ethical violations, in 2007 S&T had not eliminated the past
                 concerns of Congress and GAO. S&T project managers awarded IAs to
                 organizations with which they were familiar and to speed up the obligation
                 of R&D funds. Without meaningful Analysis of Alternatives documents,
                 we could not confirm that these IAs were in the best interest of the
                 government.

                 S&T Used Some Economy Act Interagency Agreements To Award
                 Funds Quickly and Conveniently in 2007

                 Five contracting officers expressed concerns that S&T used IAs solely to
                 award funding quickly to meet the aggressive deadlines for obligating
                 funds. One S&T project manager said that she might have to use a
                 noncompetitive IA in the future because she did not have sufficient staff
                 and was overburdened. Using an IA required less time and effort than
                 preparing a competitive procurement. In its 2006 report, GAO noted that
                 DHS justified the use of IAs with a need to obligate funds quickly, and it
                 concluded those reasons alone were not appropriate.

                 The Economy Act allows goods and services to be acquired quickly and
                 conveniently, but it also requires that the IA be in the best interest of the
                 government. Speed and convenience do not necessarily result in an award
                 that is in the best interest of the government. There may be times when
                 fast solutions are critical and in the government’s best interest, but without
                 an analysis that determines that speed and convenience outweigh the
                 benefits of competition, S&T may be foregoing the advantages of
                 competition in order to meet challenging procurement goals. Approving
                 program officials and contracting officers should ensure that they have
                 sufficient supporting documentation and analysis for any proposed
                 Economy Act IA with another federal entity in order to assess whether the
                 IA is the best procurement method.



The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 19
                 In 2007, Some S&T Staff Used Interagency Agreements To Fund
                 Individuals and Organizations With Whom They Had Contacts

                 We reviewed several IAs in 2007 that appeared to provide R&D funding
                 to personal or business acquaintances of S&T staff. We did not identify
                 any violations of ethical rules and standards, but we determined that S&T
                 used IAs to award funding to organizations that they used in the past and
                 with which they were familiar. Past performance is an important factor to
                 consider, but project managers should not award simply to continue
                 friendly or comfortable contacts. When deciding to award R&D funding
                 by means of an Economy Act IA, project managers should assess whether
                 other organizations might provide a better value for the government.

                 The CFR and a DHS management directive bar federal employees from
                 using their government employment to assist friends. The ethics rules in
                 5 CFR 701, et seq., prohibit a federal employee from using his or her
                 position for the benefit of family, friends, or others with whom the
                 employee is acquainted outside of government. Likewise, DHS
                 Management Directive 0480.1: “Ethics/Standards of Conduct,” directs
                 employees to act impartially and “not give preferential treatment to any
                 private organization or individual.”

                 Although we did not learn of any procurement that violated those
                 standards, some procurements initially appeared to favor a friend, family,
                 or former employer. In one IA award, S&T was able to access a contract
                 between another agency and a private consortium. An S&T staff member
                 contacted this firm and suggested that it employ the person who had
                 suggested the project to S&T and who was a personal and business
                 acquaintance of a senior official at S&T. The firm hired this person after
                 it determined that she was as well qualified as any other candidate.

                 Because S&T did not document the reasons why this award would be
                 better for the government than using other funding methods, this award
                 appeared to violate the ethics rules established by the CFR and the DHS
                 management directive. However, S&T did not violate the rules because
                 its staff did not pressure the firm to hire the candidate, and the firm felt
                 that the candidate was as well qualified as any others. However, we could
                 not determine whether the IA was in the best interest of the government.

                 Five contracting officers said that they believed S&T project managers
                 initiated IA awards to organizations with which they felt comfortable or to
                 access individuals with whom they were familiar without assessing the
                 alternatives. The contracting officers felt that they did not have the
                 subject matter expertise to overrule the project managers’ choices, despite
                 their suspicions. We learned of other situations in which S&T project


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 20
                 managers used Economy Act IAs to direct work to federal agencies with
                 which the project managers had ties. These IAs involved the following:

                     •	 An S&T project manager directed funding by means of
                        noncompetitive IAs to a federal laboratory that had employed her
                        less than a year before the IA was awarded.
                     •	 An S&T project manager who was detailed from another agency
                        awarded funding via a noncompetitive IA to the agency from
                        which he was detailed and to which he would return when his
                        detail ended.
                     •	 Two S&T project managers used or sought to use an IA to secure
                        contracting support from another agency to conduct an R&D
                        procurement. The project managers were related to contracting
                        officers at the other agencies.

                 These IAs did not violate federal ethics rules and standards. There were
                 no conflicts of interest as defined by 5 CFR § 2635, because federal
                 funding may be transferred from one agency to another without regard for
                 conflicts of interest. Likewise, 5 CFR § 701, et seq., and DHS
                 Management Directive 0480.1 are not applicable because they prohibit
                 preferential treatment for entities outside of government, but not within it.

                 While these situations did not violate federal regulations, they suggest that
                 S&T awarded the IAs because the project managers had a level of comfort
                 or familiarity with the recipients, not because it would be in the best
                 interest of the government. Without documentation of the analysis
                 supporting a best value determination, it is not possible to determine
                 whether S&T selected a funding method that provided a better investment.

                 OMB and DHS Change Interagency Agreement Procedures in 2008

                 In June 2008, OMB issued guidance for using certain types of IAs, and
                 DHS management responded with new instructions and guidelines to
                 implement the changes. OMB’s guidance emphasized the Economy Act’s
                 provision that agencies determine that an IA would be in the best interest
                 of the government before issuing it. The IAs subject to the guidance were
                 those that sought to access another agency’s extant contracts or use
                 another agency’s procurement services. On June 11, 2008, the DHS chief
                 procurement officer released a memo requiring all components to support
                 decisions to use IAs with best interest determinations in accordance with
                 the OMB guidance.

                 On August 15, 2008, DHS released Directive 125-02 on Interagency
                 Agreements, which rescinded the former DHS directive on IAs,
                 Management Directive 0710.1. Three days later, DHS published


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 21
                 Instruction 125-02-001, Instruction Guide on Interagency Agreements,
                 which states that DHS components must make a best interest
                 determination for all IAs used to outsource DHS procurement functions or
                 to obtain goods or services from another federal agency. They instruct
                 that “Lack of proper acquisition planning should never be used as the
                 justification for a specific acquisition process or as a basis for selecting a
                 Servicing Agency.” This language seems to state that insufficient staff or
                 a need to obligate funds quickly would not, by itself, justify using an IA.

                 The instructions also provide a template for the Analysis of Alternatives,
                 which is quite similar to the one previously used. One significant change,
                 however, is that the project managers must include the following
                 statement: “I have determined that executing the Interagency Agreement
                 is in the best interest of the government.”

                 In February 2009, we reviewed 22 Analyses of Alternatives supporting
                 Economy Act IAs that S&T project managers signed after the new
                 instruction was established. None of them used the new template, and
                 none included the above statement. Six, or 27%, of the Analyses
                 contained the same stock language as those we reviewed in 2007.
                 However, six of the documents showed marked improvement in the
                 Analyses. Each of those contained information that was specific to the
                 procurement. Some key examples are as follows:

                     •	 “[Servicing Agency] has unique facilities…. Nor is it expected
                        that a public announcement will improve the performance costs.”
                     •	 “Ongoing work associated with this contract is necessary to 

                        support associated operational program….” 

                     •	 “No commercial entity can satisfy this requirement conveniently or
                        economically.”
                     •	 “A majority of the expertise in toxic chemical characterization
                        resides within the [Servicing Agency].”

                 S&T should require project managers to use the new Analysis of
                 Alternatives template and use project-specific language to justify use of an
                 Economy Act IA in lieu of competition.

                 Most of the recent Analyses of Alternatives continued to rely on the need
                 to avoid slow obligation as a reason for using an IA. Four, or 18%, cited
                 the need for fast procurement as the sole reason for an IA, and used
                 language such as, “If a contract was pursued outside of this IA, it could
                 delay this project and the timely development of the [program name].”
                 Eleven others, or 50%, cited a need to avoid delay as one of the reasons
                 for using the IA.



The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 22
                 Federal statutes, regulations, and a DHS management directive state that
                 competition is the preferred method of procurement. As the recent OMB
                 and DHS policy emphasized, to use the Economy Act instead of
                 competition, the awarding agency must find that using that tool would be
                 in the government’s best interest. Generally, using the Economy Act will
                 provide a faster procurement than using a competitive method.
                 Sometimes, awarding funding as quickly as possible is in the
                 government’s best interest. For example, when the government learned of
                 the terrorist threat to use liquids to smuggle explosives onto airplanes in
                 the summer of 2006, S&T used an IA to award funding to a national lab to
                 quickly develop countermeasures. That new and imminent threat justified
                 using an IA instead of competition. However, in the absence of similar
                 exigent circumstances, faster procurements are not necessarily in the best
                 interest of the government, in view of the advantages that result from
                 competition. When considering and documenting the alternatives, S&T
                 project managers should analyze whether the “delay” caused by
                 competition would be so harmful as to override the government’s interest
                 in procuring goods and services through competitive means. S&T
                 management should work with OPO and the associate general counsel for
                 S&T to develop guidance to help project managers make these
                 determinations.

                 In our followup discussions, the Acting Under Secretary for S&T said that
                 S&T has been increasing its staff and improving its procurement planning
                 processes. In addition, he will be developing more thorough oversight of
                 IA use. As a result, project managers are under less pressure to rush
                 procurements and will be required to submit more a substantive Analysis
                 of Alternatives to justify an IA. The OPO S&T division director agreed
                 that the Analyses of Alternatives have improved. Both the Acting Under
                 Secretary and the director said that low staffing in OPO continues to slow
                 S&T procurement processing, but may be mitigated by changes to IA
                 processes mandated by Congress, as explained below.

                 Additional Changes to Processing Interagency Agreements Under
                 Way as S&T Assumes More Control

                 As we were writing this report, the processes for using IAs for S&T R&D
                 needs were changing again in response to an explanatory statement
                 associated with the House of Representatives approval of the DHS
                 appropriation for FY 2009. The statement provided for a 2-year pilot
                 program in which S&T would assume more responsibility for its
                 procurements, although OPO would continue to conduct “appropriate”
                 reviews. Our draft report did not include the fact that S&T and OPO were
                 planning the pilot program and shifting responsibility for preparing some
                 IAs to S&T. An OPO headquarters staff member would approve the


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 23
                 documents, but not be involved in developing them. Assisted acquisitions
                 would not be affected by these changes.

                 S&T project managers may react in several ways to these changes. When
                 S&T takes more responsibility for the IAs, the OPO S&T Division
                 contracting officers should have more time to devote to competitive
                 procurements and the assisted acquisition IAs that they still process. If
                 they can complete those procurement actions more quickly, S&T project
                 managers may start to use competitive methods more frequently and may
                 use OPO contracting officers more often, rather than using other agencies’
                 contracting services. These changes would have a positive impact on
                 S&T’s procurements. Alternatively, the pilot program may result in
                 project managers using IAs more often in order to avoid working with
                 OPO contracting officers. Given that the FY 2008 rate of IA usage for
                 R&D awards was 54%, increasing usage rates would have a negative
                 impact on S&T procurements. The Acting Under Secretary for S&T
                 agreed that this could happen. He said that he will establish a more robust
                 IA oversight mechanism to ensure that IAs are used properly and not to
                 bypass OPO. He also plans to establish a task force to develop processes
                 and an oversight mechanism to ensure that IAs are used appropriately.

                 New S&T Oversight Mechanism Should Prevent Problems With
                 Noncompetitive Interagency Awards

                 Since 2007, S&T gradually has improved its IAs. It established safeguards
                 to prevent IPA staff from misusing the IA to award funding to the
                 institutions that employed them. More recently, some S&T managers have
                 begun using more precise reasoning in the Analyses of Alternatives to
                 document the reasons for not using competitive methods. The Acting
                 Under Secretary has confirmed that S&T will develop procedures and
                 oversight methods to ensure that IAs are used appropriately.

                 As S&T develops its new IA processes, it should ensure that project
                 managers conduct research to determine which award alternative provides
                 the best value for the government. The structure must ensure that project
                 managers do not use IAs simply to expedite budget obligations or to award
                 IAs to organizations with contacts to S&T staff. The advantages of
                 competition should not be foregone for these reasons alone. In addition,
                 IA oversight should ensure that S&T project managers use the new
                 Analysis of Alternatives template and enter project-specific reasons
                 justifying the use of an IA.




The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 24
        Recommendations

                 We recommend that the Under Secretary for Science and Technology:

                 Recommendation #3 (revised): Continue to develop processes for using
                 IAs appropriately and for drafting adequate Analyses of Alternatives.

                 Recommendation #4: Continue efforts to develop an oversight
                 mechanism for using IAs to award R&D funding. The oversight
                 mechanism should ensure that S&T staff members: (1) use the new
                 Analysis of Alternatives template provided in DHS Instruction 125-02­
                 001, Instruction Guide on Interagency Agreements; and (2) provide
                 project-specific reasons for using each IA that justify a determination that
                 the IA is in the best interest of the government.

                 Recommendation #5: Train project managers in the appropriate use of
                 IAs, the Analysis of Alternatives template, and new procedures.

        Management Comments and OIG Analysis
                 S&T agreed with recommendations #3, #4, and #5. However, it suggested
                 that we delete the second sentence of recommendation #3, which read:
                 “Work with OPO and Office of General Counsel to craft guidance on
                 when using an IA solely for the purpose of speed overrides the advantages
                 of competition.” In the comment, S&T stated that a need for overarching
                 guidance regarding the speed factor is not necessary because
                 recommendation #4 requires the directorate to ensure that each IA is in the
                 best interest of the government. S&T also stated that it will develop
                 general guidance and provide training to ensure that program managers
                 and division directors understand the value of competitive procurements
                 and properly document decisions to use IAs instead. In addition, the
                 division directors will review the analyses of alternatives to ensure they
                 provide adequate justification, and the chief financial officer’s staff will
                 review them for completeness.

                 We agree with S&T’s comments, and revised recommendation #3. This
                 recommendation is resolved, but open pending delivery of documentation
                 that S&T has developed processes and general guidance for using IAs
                 appropriately.

                 With regard to recommendation #4, S&T’s proposal to have division
                 directors and staff from the Office of the Chief Financial Officer review
                 the analyses of alternatives is not a significant change from the former
                 practice, in which a review was conducted by staff from the office of the
                 chief financial officer and a division designee, who was the division


The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 25
                 director in the samples that we examined. Using the same staff to review
                 the analyses of alternatives will suffice, if their review ensures that the
                 project manager used the new analysis of alternatives form and the form
                 provided project-specific reasons supporting the conclusion that the IA is
                 in the best interest of the government.

                 We consider recommendation #4 resolved/open. To close the
                 recommendation, S&T should provide the OIG documentation showing
                 that the division directors and Chief Financial Officer’s staff have been
                 directed to include these considerations in their review of IAs.

                 With regard to recommendation #5, S&T’s commitment to develop
                 guidance and train all division heads and program managers in the value
                 of competition and the use of interagency agreements will fulfill
                 recommendation #5. We consider recommendation #5 resolved/open,
                 pending S&T’s delivery of the training documents covering those topics
                 and written confirmation that it has trained the staff.




The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                            Page 26
Appendix A
Purpose, Scope, and Methodology

                       This report is responsive to two congressional requests, one from the
                       Honorable Tom Davis, then-Chairman of the House Committee on
                       Government Reform, and the other from the then minority staff of the
                       House Committee on Homeland Security. The requests directed us to
                       review the methodology that S&T uses to distribute its funds between
                       national laboratories, academia, and the private sector. The report is based
                       on information obtained from interviews and documents, as well as a
                       review of applicable laws, regulations, and policies.

                       We began our fieldwork in January 2007 and were summarizing the
                       results in February 2008, when we were diverted from the review. Until
                       that time, we had conducted more than 125 interviews of S&T officials
                       and staff, OPO and office of the associate general counsel for S&T
                       personnel, and the DHS designated agency ethics official. We had
                       reviewed and analyzed extensive documentation provided by S&T, which
                       included guidelines, procedures, and financial documents. We also had
                       studied related laws, regulations, executive orders, DHS management
                       directives, and legal opinions related to federal procurements and ethics.
                       We examined reports from GAO, OMB, and Congress, as well as relevant
                       speeches, testimony, and news articles.

                       We resumed our fieldwork in January 2009 to refresh our information and
                       conclusions. From January through March 2009, we conducted eight
                       additional interviews and reviewed and analyzed additional documents,
                       including the June 2008 OMB report Interagency Acquisitions, new DHS
                       instructions for implementing the report, training data, and e-mails.

                       This review was conducted under the authority of the Inspector General
                       Act of 1978, as amended, and according to the Quality Standards for
                       Inspections, issued by the President’s Council on Integrity and Efficiency.




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                  Page 27
Appendix B
Management’s Comments to the Draft Report




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 28 

Appendix B
Management’s Comments to the Draft Report




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 29 

Appendix B
Management’s Comments to the Draft Report




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 30 

Appendix B
Management’s Comments to the Draft Report




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 31 

Appendix C
DHS MD 0710.1, Analysis of Alternatives Template




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 32 

Appendix C
DHS MD 0710.1, Analysis of Alternatives Template




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 33 

Appendix D 

Sample S&T Analysis of Alternatives for IA Award in 2007 





      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 34 

Appendix E
DHS Instruction 125-02-001, Analysis of Alternatives Template




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 35 

Appendix F
Major Contributors to This Report


                       William McCarron, Chief Inspector

                       Elizabeth Kingma, Senior Inspector

                       Kirsten Murray, Inspector

                       Jonathan Davis-Olo, Inspector




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs

                                                  Page 36
Appendix G
Report Distribution


                       U.S. Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Deputy Chiefs of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       S&T/OIG Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as appropriate




      The Science and Technology Directorate’s Processes for Funding Research and Development Programs 


                                                  Page 37 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
